Report No. D-2009-098          July 30, 2009




        Status of the Defense Emergency
          Response Fund in Support of
            the Global War on Terror
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932,
or by mail:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
DARPA                 Defense Advanced Research Project Agency
DERF                  Defense Emergency Response Fund
DFAS                  Defense Finance and Accounting Service
DHP                   Defense Health Program
DISA                  Defense Information Systems Agency
DLA                   Defense Logistics Agency
DoDEA                 DoD Education Activity
DSCA                  Defense Security Cooperation Agency
DSS                   Defense Security Services
DTRA                  Defense Threat Reduction Agency
FAD                   Fund Authorization Document
GAO                   Government Accountability Office
GWOT                  Global War on Terror
IFF                   Iraq Freedom Fund
JCS                   Joint Chiefs of Staff
OSD                   Office of the Secretary of Defense
USD(C)/DoD CFO        Under Secretary of Defense (Comptroller)/DoD Chief Financial
                         Officer
ULO                   Unliquidated Obligations
USSOCOM               United States Special Operations Command
WHS                   Washington Headquarters Services
                                  INSPECTOR GENERAL
                                DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202-4704



                                                                             July 30, 2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 DOD CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF DEFENSE FOR HOMELAND
                 DEFENSE AND AMERICA'S SECURITY AFFAIRS
               OFFICE OF GENERAL COUNSEL
               DIRECTOR DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Status of the Defense Emergency Response Fund in Support of the Global
         War on Terror (Report No. D-2009-098)


Weare providing this report for your review and comment. We considered comments
from the Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer and the
Director, Defense Finance and Accounting Service in preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. We
revised draft Recommendations l.a. and l.b. to clarify the nature of actions that the
Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer needs to do to
improve the management of the Defense Emergency Response Fund. We added
Recommendation 1.c. to update DoD Regulation 7000.14-R, "DoD Financial
Management Regulation (FMR)," after the Defense Emergency Response Fund is closed.
Therefore, we request comments from the Under Secretary of Defense
(Comptroller)/DoD Chief Financial Officer on Recommendations 1.a., 1.b., and 1.c. by
August 31, 2009. The comments from the Defense Finance and Accounting Service were
responsive. Therefore, we do not require any additional comments from the Defense
Finance and Accounting Service. See the recommendation table on page ii.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, send your comments in electronic format (Adobe Acrobat file only) to
auddbo@dodig.mil. Copies of your comments must have the actual signature of the
authorizing official for your organization. Weare unable to accept the / Signed / symbol
in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network
(SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
601-5868.

                                             f~Q·!h~
                                             Patricia A. Marsh, CPA
                                             Assistant Inspector General
                                             Defense Business Operations
Report No. D2009-098 (Project No. D2008-D000FE-0106.000)                          July 30, 2009

               Results in Brief: Status of the Defense
               Emergency Response Fund in Support of the
               Global War on Terror
                                                           balance in DERF to IFF, the Defense Finance
What We Did                                                and Accounting Service should not make any
Our objective was to determine whether the                 more disbursements from DERF.
Defense Emergency Response Fund (DERF) for
the Global War on Terror (GWOT) was used as                What We Recommend
intended and whether the use of the funds                  We recommend that the Under Secretary of
complied with the Office of Management and                 Defense (Comptroller)/DoD Chief Financial
Budget guidance. We will issue at least one                Officer (USD[C]/DoD CFO):
additional report addressing this audit objective.             require the DoD Components to review
For this report, we determined whether DoD                        their DERF for GWOT obligations and
transferred all DERF balances to the Iraq                         deobligate all unliquidated obligations,
Freedom Fund (IFF) as intended by Public Laws                     withdraw all excess funds, and transfer
108-11 and 108-106. These public laws require                     the funds to the Treasury Department,
that balances in DERF as of October 31, 2003,                  withdraw all unobligated DERF for
be transferred to IFF.                                            GWOT funding allocated to the DoD
                                                                  Components and transfer the funds to the
What We Found                                                     Treasury Department, and
On April 15, 2004, DoD transferred more than                   revise DoD financial management
$126 million from DERF to IFF as required by                      regulations on DERF if DERF is closed.
the public laws. However, the DoD                          We also recommend that the Director, Defense
Components’ internal controls were not                     Finance and Accounting Service not make any
adequate to ensure that DoD transferred all                more disbursements from DERF.
DERF for GWOT balances to IFF. The
Components did not review their obligations to             Management Comments and
ensure that they were valid and accurate and that          Our Response
unliquidated obligations were deobligated. As a
                                                           We revised draft Recommendations 1.a. and 1.b.
result, 5 years and 6 months after the public law
                                                           to clarify the nature of the actions that the
has mandated the transfer of balance in DERF to
                                                           USD(C)/DoD CFO needs to do to improve the
IFF, there is still about $108.9 million, classified
                                                           management of DERF. We added
as unpaid obligations, and an additional
                                                           Recommendation 1.c. to the USD(C)/DoD CFO
$151.1 million, classified as unobligated, for a
                                                           to update DoD Regulation 7000.14-R, “DoD
total of $260 million in DERF for GWOT that
                                                           Financial Management Regulation (FMR),”
DoD needs to transfer to the Department of
                                                           after DERF is closed. We request comments
Treasury because the law to transfer the funds to
                                                           from the USD(C)/DoD CFO on
IFF had expired. In addition, there is
                                                           Recommendations 1.a., 1.b., and 1.c. by
$15.3 million in DERF for disaster and
                                                           August 31, 2009. The Director, Defense
humanitarian assistance that DoD needs to
                                                           Finance and Accounting Service provided
transfer to the Department of Treasury. Because
                                                           responsive comments. See the recommendation
it has been more than 5 years and 6 months
                                                           table on page ii.
since the public law mandated the transfer of
                                                       i
Report No. D2009-098 (Project No. D2008-D000FE-0106.000)              July 30, 2009

Recommendation Table
Management                      Recommendations            No Additional Comments
                                Requiring Comment          Required
Under Secretary of Defense      1.a., 1.b., and 1.c.
(Comptroller)/DoD Chief
Financial Officer
Director, Defense Finance and                              2.
Accounting Service

Please provide comments by August 31, 2009




                                             ii
Table of Contents

Results in Brief                                                               i

Introduction                                                                   1

       Objectives                                                             1
       Background                                                             1
       Review of Internal Controls                                            3

Finding. Management of the Defense Emergency Response Fund for the Global     4
         War on Terror

       Recommendations, Management Comments, and Our Response                 10

Appendices

       A. Scope and Methodology                                               13
             Prior Coverage                                                   14
       B. Public Laws Affecting the Defense Emergency Response Fund           15
             for the Global War on Terror

Management Comments

       Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer   17
       Defense Finance and Accounting Service                                 20
Introduction
Objectives
Our audit objective was to determine whether the Defense Emergency Response Fund
(DERF) for the Global War on Terror (GWOT) was used as intended and whether the use
of the fund complied with the Office of Management and Budget guidance. We will
issue at least one additional report addressing this audit objective. For this report, we
determined whether DoD closed and transferred all DERF balances to the Iraq Freedom
Fund (IFF) as intended by Public Law 108-11, the “Emergency Wartime Supplemental
Appropriations Act, 2003,” April 16, 2003, and Public Law 108-106, the “Emergency
Supplemental Appropriations Act for Defense and for the Reconstruction of Iraq and
Afghanistan, 2004,” November 6, 2003. These public laws require that balances in
DERF as of October 31, 2003, be transferred to IFF. See Appendix A for a discussion of
the scope, methodology, and prior audit coverage.

Background
Defense Emergency Response Fund
In FY 1990, Congress established DERF to reimburse DoD for providing disaster or
emergency assistance to other Federal agencies and to state and local governments in
anticipation of reimbursable requests. Congress initially funded DERF at $100 million.
The purpose of DERF is to allow DoD to provide disaster and emergency relief
assistance without depleting the funds it needs to accomplish its mission. DERF
centralizes DoD financial accounting for disaster assistance. From its inception through
2006, DoD has used more than $384.1 million in DERF funding for overseas disaster and
humanitarian assistance projects. As of the date of this report, there was $15.3 million in
DERF for disaster and humanitarian assistance. Subsequent to the events of
September 11, 2001, Congress allocated more than $14.6 billion additional funding to
DERF as part of DoD efforts to support GWOT.

Public Laws
Shortly after the terrorist attacks on September 11, 2001, Congress passed several laws
that provided funding to Federal agencies to meet their emergency expenses arising from
the attacks. The funds were to be used for:

       providing Federal, state, and local preparedness for mitigating and responding to
        the attacks;
       providing support to counter, investigate, or prosecute domestic or international
        terrorism;
       providing increased transportation security;
       repairing public facilities and transportation systems damaged by the attacks; and
       supporting national security.




                                             1
In addition, Public Law 108-11 required that all balances in DERF as of October 31,
2003, be transferred to and merged with IFF and remain available for the same purposes
and terms of conditions as the funds appropriated to the IFF “in this chapter.” The funds
appropriated for the IFF “in this chapter” were good until September 30, 2004. Public
Law 108-106 amended Public Law 108-11 by requiring that all unobligated balances in
DERF be transferred to IFF. In addition, the Law stated that effective November 1, 2003,
adjustments to obligations that would have been chargeable to DERF for GWOT must be
charged to any current DoD appropriations account available for the same purpose. See
Appendix B for the public laws affecting the DoD DERF for the GWOT.

Iraq Freedom Fund
Public Law 108-11 established IFF to account for additional expenses for ongoing
military operations in Iraq and other operations and related activities in support of
GWOT. According to the Law, IFF is necessary to finance the estimated partial cost of
combat, stability operations, force reconstruction, replacement of munitions and
equipment, and other costs. Congress initially funded IFF at about $15.7 billion. IFF
was still an operational account as of the date of this report.

DoD Financial Management Regulation
Volume 3, Chapter 8
DoD Regulation 7000.14-R, “DoD Financial Management Regulation (FMR),”
volume 3, chapter 8, “Standards for Recording and Reviewing Commitments and
Obligations,” June 2005, requires DoD fund holders, with assistance from supporting
accounting offices, to perform triannual reviews of commitments and obligations for
timeliness, accuracy, and completeness. The requirement applies to all DoD direct
appropriations and reimbursable transactions. All required deobligations, adjustments, or
corrections identified during the review are to be documented and processed within
10 working days. The fund holders are required to maintain the documentation of their
reviews for a period of 24 months to permit independent verification by organizations,
such as the DoD Office of Inspector General and the DoD Component audit agencies.

Volume 3, Chapter 10
DoD Regulation 7000.14-R volume 3, chapter 10, “Accounting Requirements for
Expired and Closed Accounts,” October 2008, requires DoD Components to cancel
obligated and unobligated balances in appropriations that are available for an indefinite
period when:
     no disbursements have been made from the appropriation for a period of 2 years
        and
     the President, the Secretary of Defense, or a designee of the Secretary determine
        that the purpose for which the appropriation was made has been carried out.
The Regulation also requires DoD Components to review remaining unliquidated
balances in expired accounts and, prior to cancellation, deobligate all amounts not
supported by documentary evidence. DoD 7000.14-R also prohibits disbursing from
canceled appropriations 5 years following the expiration of the availability of the fund for
incurring new obligations.


                                             2
Defense Finance and Accounting Service Manual 7097.01
The Defense Finance and Accounting Service (DFAS) Manual 7097.01, “Departmental
Reporting Manual for the Office of the Secretary of Defense (Treasury Index 97)
Appropriations,” June 2004, chapter 2, “Emergency Response Fund, Defense,
Appropriation Description and Instructions,” states that Public Law 108-11 requires
unobligated balances remaining in DERF for GWOT as of October 31, 2003, be
transferred to, and merged with, IFF. In addition, DFAS Manual 7097.01 states that
DERF for GWOT has been closed for further obligations in accordance with Public Law
108-106. Furthermore, the DFAS Manual 7097.01 states that, “effective November 1,
2003, adjustments to obligations that would have been properly chargeable to DERF for
GWOT shall be charged to any current appropriation available for the same purpose.”

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses in the DoD Components’ conduct of triannual reviews. The DoD
Components did not perform triannual reviews of commitments and obligations for
timeliness, accuracy, and completeness to ensure that unliquidated obligations (ULOs) were
deobligated and excess funds put to better use. Implementing the recommendations in the
finding will improve financial management at the DoD Components and will result in at
least $260 million being transferred to the Department of the Treasury. We will provide
a copy of the report to the senior official responsible for internal controls in the Office of
the Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer.




                                              3
Finding. Management of the Defense
Emergency Response Fund for the Global
War on Terror
On April 15, 2004, DoD transferred more than $126 million from the Defense
Emergency Response Fund (DERF) to the Iraq Freedom Fund (IFF). However, DoD
Components’ internal controls were not adequate to ensure that DoD transferred all
DERF balances to IFF in accordance with Public Laws. This occurred because the DoD
Components did not review their obligations as required by DoD Regulation 7000.14-R
to ensure that their unliquidated obligations (ULOs) were deobligated to allow DoD to
transfer all remaining balances in DERF to IFF. In addition, the DoD Components did
not review their obligated and unobligated balances in DERF for the Global War on
Terror (GWOT) after the funding in DERF had been canceled, as required by DoD
7000.14-R. As a result, 5 years and 6 months after the public law has mandated the
transfer of balance in DERF to IFF, there is still about $108.9 million, classified as
unpaid obligations, and an additional $151.1 million, classified as unobligated, for a total
of $260 million in DERF for GWOT. DoD needs to transfer this amount to the
Department of the Treasury because the law to transfer the funds to IFF has expired. In
addition, there is $15.3 million in DERF for disaster and humanitarian assistance that
DoD needs to transfer to the Department of the Treasury. To enable DoD to transfer the
amounts, the Defense Finance and Accounting Service (DFAS) should not make any
more disbursements from DERF.

DoD DERF for GWOT Funding and Other Transfer
Actions
Eight public laws either provided funding to DERF for DoD efforts on GWOT or allowed
DoD to transfer funding from DERF for GWOT for other purposes. For example, Public
Law 107-38, the “2001 Emergency Supplemental Appropriations Act for Recovery From
and Response to Terrorist Attacks on the United States,” September 18, 2001, and Public
Law 107-117, the “Department of Defense Emergency Supplemental Appropriations for
Recovery From and Response to Terrorist Attacks on the United States,” January 10,
2002, allowed DoD to transfer funds from DERF for GWOT to other DoD
appropriations. In addition, because of Public Law 107-296, the “Homeland Security Act
of 2002,” November 25, 2002; DoD transferred about $74.5 million to the Department of
Homeland Security. In a December 7, 2005, report the Government Accountability
Office opined that DoD acted properly when it transferred funds from DERF for GWOT
to other DoD appropriations in accordance with:
      Public Law 107-117 and
      Public Law 107-206, “2002 Supplemental Appropriations Act for Further
         Recovery From and Response to Terrorist Attacks on the United States,”
         August 2, 2002.




                                             4
See Appendix B for the public laws affecting DERF for GWOT. Table 1 shows the total
amount that DoD received into DERF for GWOT and DoD transfer actions in the
account.

    Table 1. DERF for GWOT Funding by Public Law and Other DoD Transfer Actions
                                             (in millions)1
 Public    Purpose                           FY 2001        FY 2002          FY 2003         Total
 Law2
 107-38    Transfer from Office of          $12,515.7              $                $    $12,515.7
           Management and Budget
 107-117   Appropriated for DERF                             3,395.6                       3,395.6
 107-117   Transferred to White                                  (.5)                          (.5)
           House Commission on
           National Moment of
           Remembrance
 107-117   Section 305 Transfer to                           (475.0)                       (475.0)
           Pentagon Reservation
           Maintenance Revolving
           Fund
 107-206   2002 Supplemental                                11,901.9                      11,901.9
           Appropriated for DERF
 107-206   Rescission                                                          (601.9)     (601.9)
 107-206   Section 312 Rescission              (224.0)                                     (224.0)
 107-248   Section 8120 From                                   305.0                         305.0
           Pentagon Reservation
 107-296   Office of Management                                (74.5)                        (74.5)
           and Budget directed
           transfer to Homeland
           Security
 108-7     Transfer to Procurement,                                             (40.0)       (40.0)
           Defense-Wide
           Transfer to Office                  (226.2)       (274.0)                       (500.2)
           Management and Budget
           Transfer to Other DoD                (40.0)       (244.9)        (11,170.3)   (11,455.2)
           Appropriations
 108-11/   Directed all DERF                                 (126.0)                       (126.0)
 108-106   balances as of October 31,
           2003, be transferred to
           IFF
 Total                                         $12,025.5   $14,407.6       $(11,812.2)   $14,620.9
 1
   Source: Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer.
 2
   See Appendix B for the description of the public laws.

DERF for GWOT Account Balance at Closure
The Under Secretary of Defense (Comptroller)/DoD Chief Financial Officer
(USD[C]/DoD CFO) allocated DERF for GWOT funding to DoD Major Components on
Fund Authorization Documents (FADs). FADs established a written funding authority
for the receiving DoD Component. The Major Components then suballocated the funds
to their Subordinate Commands for execution. The USD(C)/DoD CFO allocated
$14.6 billion to the DoD Major Components for their GWOT needs after accounting for


                                                  5
the $126 million that DoD transferred to IFF in accordance with Public Laws 108-11 and
108-106 and other DoD transfer actions as shown in Table 1. Table 2 provides details of
the balance of DERF for GWOT as of October 31, 2003, after Public Law 108-11 has
mandated the transfer of balance in DERF to IFF.

                                    Table 2. DFAS 1002 Report3
                                  DERF for GWOT Account Balance
                                       as of October 31, 2003
                                              (in millions)
                     A                             B               C                    D              E
                                           Amount                                                (C+D)
                                          Available                                          Amount to
                                                 for     Unobligated       Unliquidated      Transfer to
                Component                Obligations          Funds         Obligations             IFF
    Army                                  $ 2,462.7          $ 3.3              $ 225.8          $229.1
    Navy                                     3,782.1             116.3              459.2           575.5
    Air Force                                4,616.7                7.1             696.8           703.9
    Washington Headquarters Services           875.5                  0              (9.0)           (9.0)
    (WHS)
    Office of the Secretary of Defense         188.6                  0              47.4            47.4
    (OSD) (Unallocated)
    United States Special Operations           750.9             (21.7)             126.3           104.6
    Command (USSOCOM)
    Defense Information Systems                252.3                  0            (44.1)          (44.1)
    Agency (DISA)
    Defense Threat Reduction Agency            211.8                 .3              30.5            30.8
    (DTRA)
    Defense Security Cooperation               149.5                  0            (17.5)          (17.5)
    Agency (DSCA)
    Defense Logistics Agency (DLA)             129.9                  0               2.4             2.4
    Defense Advanced Research                   40.0                  0               6.3             6.3
    Project Agency (DARPA)
    Defense Health Program (DHP)                31.4                 .1               7.7             7.8
    Defense Security Services (DSS)             16.5                  0               3.8             3.8
    DoD Education Activity (DoDEA)              12.8                  0               5.3             5.3
    Joint Chiefs of Staff (JCS)                    .7                 0                 .1              .1
    Defense Finance and Accounting                 .5                 0               (.6)            (.6)
    Service (DFAS)
    Other Agencies                           1,133.7               29.4             149.0           178.4
    Undistributed/Unallocated                   91.4               91.4              16.2           107.6
                                                    4
  Total                                   $14,747.0             $226.2           $1,705.6.        $1,931.8
3
  Appropriation status report designed to present budget execution data with respect to obligation authority.
4
  The difference between the amounts available for obligation in Tables 1 and 2 was caused by the
$126 million transferred to IFF on April 15, 2004.

Review of Obligations
In 2004, DoD lost the chance to transfer more funds from DERF to IFF. On April 15,
2004, DoD transferred more than $126 million from DERF for GWOT to IFF. On that


                                                        6
date, DoD could have transferred additional $102 million to IFF. However, 15 days after
the DoD transfer on April 15, 2004, $102 million remained unobligated in DERF for
GWOT. Table 3 shows the balance in DERF for GWOT after the DoD transferred. A
review of the unliquidated obligations could have identified additional $942.6 million
ULOs that DoD could have transferred to IFF to be put to better use in 2004.

                             Table 3. DFAS 1002 Report
                           DERF for GWOT Account Balance
                                 as of April 30, 2004
                                       (in millions)
         A                      B                C               D                     E
                        Amount                                                    (C+D)
                    Available for    Unobligated       Unliquidated   Amount to Transfer
   Component         Obligations          Funds         Obligations               to IFF
 Army                  $ 2,451.8         $ 1.8              $ 111.3             $ 113.1
 Navy                     3,675.4                4.8          215.4                220.2
 Air Force                4,610.5                3.9          381.4                385.3
 WHS                       875.5                  0              0                     0
 OSD                       188.6                  .2           31.8                 32.0
 USSOCOM                   750.4                  .8           80.0                 80.8
 DISA                      253.4               (.1)             4.9                  4.8
 DTRA                      211.6                  .1           15.5                 15.6
 DSCA                      149.5                  0          (17.5)               (17.5)
 DLA                       129.9                  0             2.4                  2.4
 DARPA                      40.0                  0             3.4                  3.4
 DHP                        31.4                  .1            7.6                  7.7
 DSS                        16.5                  0             3.2                  3.2
 DoDEA                      12.8                  0             4.0                  4.0
 JCS                           .7                 0              .1                   .1
 DFAS                          .5                 0            (.3)                  (.3)
 Other Agencies           1,132.8                 .7          100.7                101.4
 Undistributed              89.7              89.7            (1.3)                 88.4
 Total                 $14,621.0          $ 102.0           $ 942.6            $ 1,044.6

Expired Funds
DERF still had account balances 5 years after the account had expired or been canceled.
Expired or canceled funds are those funds in which the balances are no longer available
for new obligations because the time for incurring new obligations has expired or the
funds have been canceled. The unexpended balance of a canceled account is the sum of
the unobligated balance and the unliquidated obligations at the time of the cancellation,
adjusted for valid obligations and payments, which are charged to the account. DoD
Regulation 7000.14-R requires DoD Components to review the remaining unliquidated
obligations in expired accounts, prior to cancellation, and deobligate all amounts not
supported by documentary evidence. However, as of September 30, 2008, 5 years after
the public law has mandated the transfer of balance in DERF to IFF, the DoD


                                             7
Components have not performed this review. As Table 4 shows, the review would have
identified about $102.6 million, classified as unpaid obligations, and an additional
$253.3 million, classified as unobligated, for a total of $355.9 million canceled
appropriation in DERF that DoD could have transferred to the Department of the
Treasury. The funds could not be transferred to the IFF.

                                  Table 4. DFAS 1002 Report
                                DERF for GWOT Account Balance
                                   as of September 30, 2008
                                              (in millions)
         A                  B                  C                 D                     E
                            Amount                                                   (C+D)
                        Available for                         Unliquidated        Amount to Transfer
        Component        Obligations      Unobligated          Obligations                    to IFF
 Army                      $ 2,451.7          $ 51.2                $ 7.0                    $ 58.2
 Navy                         3,675.4              25.9                26.0                        51.9
 Air Force                    4,610.5              45.8                43.4                        89.2
 WHS                            875.5                  0                  0                           0
 OSD                            188.6               2.1                 2.5                         4.6
 USSOCOM                        750.4               6.3                 9.6                        15.9
 DISA                           253.4               1.1                 9.3                        10.4
 DTRA                           211.6                  .8               3.1                         3.9
 DSCA                           149.5                  .1                 0                           .1
 DLA                            129.9               1.6                   0                         1.6
 DARPA                           40.0                  .1                .4                           .5
 DHP                             31.4                  .6                .6                         1.2
 DSS                             16.5               2.3                  .1                         2.4
 DoDEA                           12.8                  0                 .8                           .8
 JCS                                .7                 .1                 0                           .1
 DFAS                               .5                 0                  0                           0
 Other Agencies               1,132.8              25.5                 1.3                        26.8
 Undistributed                   89.8              89.8               (1.5)                        88.3
                                                        5
 Total                      $14,621.0             $253.3             $102.6                       $355.9
 5
   The unobligated amount in Table 4 is greater than the same amount in Table 3 because the unliquidated
 obligations decreased between April 30, 2004, and September 30, 2008.

Transfer to the Department of Treasury
On April 15, 2004, DoD transferred more than $126 million from DERF to the IFF.
However, DoD lost the opportunity to transfer at least $102 million from DERF to IFF
because the DoD Components did not review their obligations for accuracy as required
by DoD Regulation 7000.14-R. DoD cannot transfer the funds now because the
appropriation to transfer to in IFF expired in 2004. DoD therefore needs to transfer the
balances in DERF to the Department of Treasury. As discussed in Table 3, on April 15,
2004, DoD could have transferred an additional $102 million classified as unobligated in
DERF to IFF. A review of the unliquidated obligations could have identified additional


                                                   8
funds that DoD could have transferred to IFF to be put to better use. In a draft of this
report, we used the DFAS 1002 report as of September 30, 2008, to conclude that DoD
should transfer $355.9 million to IFF. Since we issued a draft of this report in March
2009, the DFAS 1002 report has been “cleaned.” DFAS told us in an e-mail message on
May 9, 2009 that the undistributed amount expired after September 2008 and the funds
returned to the Department of the Treasury. The USD(C)/DoD CFO used the DFAS
1002 report subsequent to our draft report to determine the amount that should be
transferred to the Department of the Treasury. We updated the draft report to include the
status of DERF as of March 31, 2009, in determining the amount that DoD needs to
transfer to the Department of the Treasury.

DERF for GWOT
As shown in Table 5, the $89.8 million classified as “undistributed” on September 30,
2008, has been reduced to $0.1 million by March 31, 2009 because according to DFAS,
$89.7 million has expired and returned to the Department of the Treasury. Unobligated
and unliquidated obligations also changed for some of the DoD Components.

                              Table 5. DFAS 1002 Report
                            DERF for GWOT Account Balance
                                  as of March 31, 2009
                                        (in millions)
          A              B               C                 D                 E
                         Amount                                            (C+D)
                     Available for                      Unliquidated    Amount to Transfer
         Component    Obligations    Unobligated         Obligations                to IFF
 Army                   $ 2,451.7        $ 51.1               $ 6.8                $ 57.9
 Navy                      3,675.4           26.1                24.7                 50.8
 Air Force                 4,610.5           47.1                40.1                 87.2
 WHS                        875.5                0                 0                    0
 OSD                        188.6             2.1                 2.5                  4.6
 USSOCOM                    750.4             6.3                 6.8                 13.1
 DISA                       253.4             1.1                 9.3                 10.4
 DTRA                       211.6                .8               3.3                  4.1
 DSCA                       149.5                .1                0                    .1
 DLA                        129.9             1.6                  0                   1.6
 DARPA                       40.0                .1                .4                   .5
 DHP                         31.4                .4                .7                  1.1
 DSS                         16.5             2.3                  .1                  2.4
 DoDEA                       12.8                0                 .8                   .8
 JCS                            .7               .1                0                    .1
 DFAS                           .5               0                 0                    0
 Other Agencies            1,132.8           11.8                14.9                 26.7
 Undistributed                  .1               .1             (1.5)                (1.4)
 Total                  $14,531.3         $151.1               $108.9               $260.0




                                             9
However, the public laws have prohibited adjustment to the obligations in DERF more
than 5 years prior to March 31, 2009. As showed in Table 5, DoD needs to transfer
$260 million in DERF for GWOT to the Department of the Treasury.

DERF for Disaster and Humanitarian Assistance
In FY 1990, Congress established DERF to reimburse DoD for providing disaster or
emergency assistance to other Federal agencies and to state and local governments in
anticipation of reimbursable requests. Congress initially funded DERF at $100 million.
In June 2008, we reported * that there was $15.3 million in DERF (97x4965) for disaster
and humanitarian assistance. According to the March 31, 2009, DFAS 1002 report for
appropriation code 97x4965, the balance has not changed. Since the USD(C)/DoD CFO
has concluded that Congress intended to close DERF, DoD needs to transfer this amount
to the Department of the Treasury. Therefore, to close the DERF account, DoD needs to
transfer $275.3 million in DERF as of March 31, 2009, to the Department of the
Treasury. This includes $260 million in DERF for GWOT and $15.3 million in DERF
for disaster and humanitarian assistance.

Disbursement From Canceled Accounts
To enable DoD to transfer the balance in DERF to the Department of the Treasury, DFAS
should not make any more disbursements from DERF for GWOT. DoD Regulation
7000.14-R states:
                   [D]o not pay amounts presented for payment that cite canceled
                   appropriations (appropriations beyond the end of the fifth year
                   following the expiration of their availability for incurring new
                   obligations) until the disbursing officer has obtained a current available
                   appropriation fund cite from the funding activity.

DoD Regulation 7000.14-R agrees with the intent of Public Laws 108-11 and 108-106,
which closed DERF and prohibited adjustments to DERF for GWOT obligations.
Additionally, because it has been more than 5 years and 6 months since DoD closed
DERF in accordance with Public Law 108-11 and because Public Law 108-106
prohibited adjustments to DERF for GWOT obligations DFAS, as the disbursing office
for DoD, should not make any more disbursements from DERF for GWOT. This will
enable DoD to transfer the balance in DERF to the Department of the Treasury.

Recommendations, Management Comments, and Our
Response
Revised and Added Recommendations
As a result of management comments, we revised draft Recommendation 1.a. and 1.b.
and added Recommendation 1.c. We revised draft Recommendation 1.a. and 1.b. to
clarify the nature of the actions that the USD(C)/DoD CFO needs to do to improve the


*
    Report No. D-2008-105, “Defense Emergency Response Fund,” June 20, 2008.


                                                      10
management of DERF. We added Recommendation 1.c. to the USD(C)/DoD CFO to
update DoD Regulation 7000.14-R to indicate that DERF is closed and therefore not
available for any new obligations. We request the USD(C)/DoD CFO provide comments
and a plan of action and milestones to implement this added recommendation by
August 31, 2009.

1. We recommend that the Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer:

       a. Require the DoD Components to review their Defense Emergency
Response Fund for the Global War on Terror obligations and deobligate all
unliquidated obligations, withdraw all excess funds provided to the DoD
Components, and transfer the funds to the Department of the Treasury.

       b. Withdraw all unobligated Defense Emergency Response Fund funding
allocated to the DoD Components and transfer the funds to the Department of
Treasury.

Management Comments
The USD(C)/DoD CFO disagreed with the recommendations and stated that DERF
resources are no longer available for transfer because the law required DoD to transfer
DERF funds, which are “X-year” appropriations, to the IFF, which is a “03/04
appropriation.” The USD(C)/DoD CFO also stated that the transfer action to IFF
occurred in April 2004. Furthermore, he stated that it is clear in the law that Congress
intended to close DERF and transfer all funds in DERF as of October 31, 2003, to the IFF
and it would be appropriate for the DoD OIG to recommend that DoD close the account
and transfer the funds to the Department of the Treasury. In addition, the USD(C)/DoD
CFO noted that the $89.7 million reported as undistributed had expired and the
$3.4 million reported for the Defense Threat Reduction Agency funding is no longer
available, leaving a total of $262.8 million in DERF to be transferred, not $355.9 million
as stated in the report.

Our Response
The USD(C)/DoD CFO comments are partially responsive. DoD Regulation 7000.14-R
requires DoD Components to perform triannual reviews of their commitments and
obligations for timeliness, accuracy, and completeness. This is a USD(C)/DoD CFO
requirement of all DoD Components and is applicable to all DoD appropriations and
reimbursable transactions. In addition, in April 2004, USD(C)/DoD CFO made a partial
transfer of funds remaining in DERF to the IFF. When the USD(C)/DoD CFO made the
transfer, there was an additional $89.7 million classified as “amount available for
obligations” in DERF for GWOT, which should have been transferred to the IFF. In
addition, if Congress intended to close the DERF, then an additional $15.3 million in
DERF (appropriation code 97X4965) for humanitarian and disaster assistance should
have been transferred to the IFF in 2004. The DoD OIG will not make a
recommendation to close DERF because USD(C)/DoD CFO has already concluded in his
comments that the “law is clear that Congress meant to close this account.” The technical


                                           11
correction indicated in the USD(C)/DoD CFO comments concluded that there is
$262.8 million in DERF and not $355.9 million cited in the draft report. We have
updated the amount DoD needs to transfer to the Department of the Treasury in this
report using the most current DFAS 1002 report as shown in Table 5. If Congress
intended to close DERF, then DoD needs to transfer all the balances in the account to the
Department of the Treasury. We request that the USD(C)/DoD CFO reconsider his
position and provide comments in response to the final report by August 31, 2009. The
comments should include a plan of action and milestones to implement each part of the
revised recommendation.

        c. We recommend that if the Under Secretary of Defense (Comptroller)/DoD
Chief Financial Officer decides to close the Defense Emergency Response Fund, he
revise chapter 6 of DoD Regulation 7000.14-R, “DoD Financial Management
Regulation (FMR),” to indicate that the fund is closed and therefore not available
for any new obligations.

2. We recommend that the Director, Defense Finance and Accounting Service not
make any more disbursements from the Defense Emergency Response Fund
account.

Management Comments
The Director, Defense Finance and Accounting Service agreed with the recommendation
and stated that the Defense Finance and Accounting Service will make the DERF line of
accounting inactive from all disbursing and entitlement systems by June 1, 2009.

Our Response
The Director, Defense Finance and Accounting Service comments are responsive and no
additional comments are required.




                                           12
Appendix A. Scope and Methodology
We conducted this financial-related audit from February 2008 through July 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our finding and
conclusions based on our audit objectives.

We performed the audit by requesting data and conducting interviews with officials and
operating personnel at the DoD Components we visited. We reviewed funding
documents to determine the funding authority provided to the DoD Components. We
compared the DFAS Appropriation Status report dated October 31, 2003, (DFAS 1002
report), to the DFAS Budget Execution report dated October 31, 2003, (DFAS SF 133
report), to determine the amounts available for obligation, amounts obligated, and unpaid
obligations at the Components. We reviewed the DFAS 1002 reports for October 31,
2003; April 30, 2004; September 30, 2007; September 30, 2008, and March 31, 2009 to
ascertain the changes in the amounts reported as unobligated and unpaid obligations that
could be put to better use. We also reviewed the DFAS 1002 reports to determine
whether the Components were making any upward adjustments to their obligations and to
determine the excess amount that should be transferred to IFF. We compared the data to
actual FADs to determine the reliability and accuracy of the data. We computed the
excess amount by adding the unobligated funds and the unpaid obligations in the
DFAS 1002 reports.

Use of Computer-Processed Data
To achieve our objectives, we relied on computer-processed data provided by DFAS and
the Components we visited. We compared the data to actual FADs to determine the
accuracy of the data. However, we did not evaluate the general and application controls
of the computers. Although we did not evaluate the general and application controls of
the computers, we did not find significant errors in funding and obligation documents that
would cause us to change the conclusions of this report.




                                           13
Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) and the DoD
Inspector General have issued two reports discussing DERF for the GWOT. Unrestricted
GAO reports can be accessed over the Internet at www.gao.gov. Unrestricted DoD IG
reports can be accessed over the Internet at http://www.dodig.mil/audit/reports.

GAO
GAO File No. B-303145, “Department of Defense – Transfer and Use of Defense
Emergency Response Fund,” December 7, 2005

DoDIG
DoD IG Report No. D2008-105, “Defense emergency Response Fund,” June 20, 2008




                                        14
Appendix B. Public Laws Affecting the
Defense Emergency Response Fund for the
Global War on Terror
Public Law 107-38, “2001 Emergency Supplemental Appropriations Act for Recovery
From and Response to Terrorist Attacks on the United States,” September 18, 2001,
provides funds for the emergency expenses resulting from the terrorist attacks that
occurred on September 11, 2001, for assistance to the victims of the attacks, and to deal
with other consequences of the attacks. The funds were to be used for:
    providing Federal, state, and local preparedness for mitigating and responding to
       the attacks;
    providing support to counter, investigate, or prosecute domestic or international
       terrorism;
    providing increased transportation security;
    repairing public facilities and transportation systems damaged by the attacks; and
    supporting national security.
The Law also stated that the “funds may be transferred to any authorized Federal
Government activity to meet the purposes of the Act.”

Public Law 107-117, “Department of Defense Emergency Supplemental Appropriations
for Recovery From and Response to Terrorist Attacks on the United States Act, 2002,”
January 10, 2002, provides funds for DoD emergency expenses in response to the
September 11, 2001 attacks for:
     increased situational awareness;
     increased worldwide posture;
     offensive counterterrorism;
     initial crisis response;
     Pentagon Reservation Maintenance Revolving Fund; and
     relocation costs and other purposes.
The Law also states that the amount is available for the purposes set forth in Public Law
107-38 and that the funds may be used to reimburse other DoD appropriations “for costs
incurred for such purposes on or after September 11, 2001.”

Public Law 107-206, “2002 Supplemental Appropriations Act for Further Recovery From
and Response to Terrorist Attacks on the United States,” August 2, 2002, provides
funding for military personnel; maintenance; procurement; research, development, test,
and evaluation; and for overseas humanitarian, disaster, and civic aid. The funds could
be transferred to other DoD accounts for classified activities.

Public Law 107-248, “DoD Appropriation Act, 2003,” October 23, 2002, requires an
amount not to exceed $305 million be transferred from the Pentagon Reservation
Maintenance Revolving Fund to DERF for GWOT for reconstruction, recovery, force
protection, or security enhancements for the Pentagon Reservation.


                                            15
Public Law 107-296 “Homeland Security Act of 2002,” November 25, 2002, requires
DoD to transfer the functions, personnel, assets, and liabilities related to National
Communications System to the Department of Homeland Security. Because of this
public Law, DoD transferred about $74.5 million from DERF for GWOT to the
Department of Homeland Security.

Public Law 108-7, “Consolidated Appropriations Resolution, 2003,” February 20, 2003,
requires the transfer of $40 million from DERF for GWOT to the Defense-Wide
Procurement account.

Public Law 108-11, “Emergency Wartime Supplemental Appropriations Act, 2003,”
April 16, 2003, requires all balances in DERF for GWOT account as of October 31,
2003, be transferred to and merged with IFF.

Public Law 108-106, “Emergency Supplemental Appropriations Act for Defense and for
the Reconstruction of Iraq and Afghanistan, 2004,” November 6, 2003, amended Public
Law 108-11 by requiring all unobligated balances in DERF account to be transferred to
IFF. In addition, the Law states that, effective November 1, 2003, adjustments to
obligations that would have been chargeable to DERF must be charged to any current
DoD appropriations account available for the same purpose.




                                           16
Under Secretary of Defense (Comptroller)/DoD Chief
Financial Officer Comments Comments




                   Click to add JPEG file




                                  17
                         Final Report
                          Reference




                         Revised




Click to add JPEG file




               18
Click to add JPEG file




               19
Defense Finance and Accounting Service Comments




                              20
Click to add JPEG file




               21
22
